No. ______
In the

Supreme Court of the United States
__________________
HAROLD PERSAUD,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
__________________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit
__________________
PETITION FOR WRIT OF CERTIORARI
__________________
RICHARD G. LILLIE
Counsel of Record
GRETCHEN A. HOLDERMAN
Lillie & Holderman
2003 St. Clair Avenue
Cleveland, Ohio 44114
(216) 781-0734
rlillie@lillieholderman.com
gholderman@lillieholderman.com
Attorneys for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Whether Reasonable Jurists Could Debate the
Denial of Petitioner’s Motion to Vacate and Set
Aside his Judgment of Conviction where the District
Court’s Review of Such Petition Did Not Address
the Merits of Petitioner’s Ineffective Assistance of
Counsel Claims and Mistakenly Referenced the
Arguments of a Different 2255 Petitioner in its
Memorandum Opinion.
2. Whether a Certificate of Appealability Should Issue
on Petitioner’s Ineffective Assistance of Counsel
Claim Where Defense Counsel Failed to Object or
Otherwise Challenge the Admission of Improper
Expert Testimony and Lay Opinion Testimony in
violation Criminal Rule 16 and Evidence Rules 701,
702, 703, and 704, and Where the District Court
Failed in its “Gatekeeper” Obligations Under
Daubert v. Merrell Dow Pharmaceuticals, Inc., 509
U.S. 579 (1993) and Evidence Rule 702.

ii
STATEMENT REQUIRED BY RULE 14.1
Pursuant to Supreme Court Rule 14.1, Petitioner states
that all parties to the proceedings in the Court whose
Judgment is sought to be reviewed are listed in the
caption above
STATEMENT OF RELATED PROCEEDINGS
-

USA v. Harold Persaud, No. 1:14-cr-0276 (N.D.
Ohio) (Judgment of Conviction issued January 5,
2016; Memorandum Opinion and Order Denying
Petitioner’s Motion to Vacate and Denying a
Certificate of Appealability issued November 19,
2018, and Judgment Order Denying Petitioner’s
Motion to Vacate and Certifying that an Appeal
Could Not be Taken in Good Faith issued on
November 27, 2018).

-

USA v. Harold Persaud, No. 2016-cr-03105 (6th
Cir.) (Opinion and Judgment filed June 13,
2017; mandate issued July 26, 2017).

-

USA v. Harold Persaud, No. 2016-cr-03427 (6th
Cir.) (Consolidated with No. 2016-cr-03105 on
May 13, 2016) (Opinion and Judgment filed
June 13, 2017; mandate issued July 26, 2017).

-

USA v. Harold Persaud, No. 2016-cr-03578 (6th
Cir.) (Consolidated with Nos. 2016-cr-03105 and
2016-cr-03427) on June 6, 2016) (Opinion and
Judgment filed June 13, 2017; mandate issued
July 26, 2017).

iii
-

Harold Persaud v. USA, No. 1:18cv013131 (N.D.
Ohio) (civil case opened upon Petitioner’s filing
his Motion to Vacate and Set aside Judgment of
Conviction) (clerk refers to Criminal Case
No.1:14-cr-276 for all further entries on June 11,
2018).

-

There are no additional proceedings in any court
that are directly related to this case.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
STATEMENT REQUIRED BY RULE 14.1 . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
RELEVANT CONSTITUTIONAL PROVISIONS . . 2
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 6
REASONS FOR GRANTING THE PETITION . . . . 8
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
APPENDIX
Appendix A Order in the United States Court of
Appeals for the Sixth Circuit
(March 28, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Judgment Order in the United States
District Court Northern District of
Ohio, Eastern Division
(November 27, 2018) . . . . . . . . . . . App. 4

v
Appendix C Memorandum Opinion and Order in
the United States District Court
Northern District of Ohio, Eastern
Division
(November 19, 2018) . . . . . . . . . . . App. 6
Appendix D Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Sixth Circuit
(May 21, 2019) . . . . . . . . . . . . . . App. 18
Appendix E Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Sixth Circuit
(June 6, 2019) . . . . . . . . . . . . . . . App. 20

vi
TABLE OF AUTHORITIES
CASES
Barefoot v. Estelle,
463 U.S. 880 (1983). . . . . . . . . . . . . . . . . . . . . . . . 9
Daubert v. Merrell Dow Pharmaceuticals, Inc.,
509 U.S. 579, 113 S. Ct. 2786 (1993), 125 L. Ed.
2d 469 (1993). . . . . . . . . . . . . . . . . . . . . . . . passim
Slack v. McDaniel,
529 U.S. 473 (2000). . . . . . . . . . . . . . . . . . . . . . . . 9
Strickland v. Washington,
466 U.S. 668 (1984). . . . . . . . . . . . . . . . . . . . . 5, 15
United States v. Persaud,
886 F.3d 371 (2017) . . . . . . . . . . . . . . . . . . . . . . 14
CONSTITUTION
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . 2, 3
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . 2, 3
STATUTES AND RULES
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Fed. Crim. R. 16 . . . . . . . . . . . . . . . . . . . . . . . . passim
Fed. Evid. R. 104 . . . . . . . . . . . . . . . . . . . . . 5, 8, 9, 10
Fed. Evid. R. 402 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Fed. Evid. R. 403 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Fed. Evid. R. 701 . . . . . . . . . . . . . . . . . . . . . . . passim

vii
Fed. Evid. R. 702 . . . . . . . . . . . . . . . . . . . . . . . passim
Fed. Evid. R. 703 . . . . . . . . . . . . . . . . . . . . . . . passim
Fed. Evid. R. 704 . . . . . . . . . . . . . . . . . . . . . . . . 3, 8, 9
OTHER AUTHORITIES
“A Second Opinion Becomes a Guilty Verdict”,
Clark and George, Wall Street Journal,
December 27, 2018 . . . . . . . . . . . . . . . . . . . . . . . 18

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Harold Persaud respectfully petitions for
a writ of certiorari to review the judgment of the
United States Court of Appeals for the Sixth Circuit
and all other adverse decisions in his case.
OPINIONS BELOW
The United States District Court for the Northern
District of Ohio issued its Memorandum Opinion
denying Petitioner’s Motion to Vacate under Title 28
United States Code Section 2255 and further denying
Petitioner a Certificate of Appealability on November
19, 2018. The United States District Court for the
Northern District of Ohio issued a Judgment Order
denying Petitioner’s Motion to Vacate under Title 28
United States Code Section 2255 and further denying
Petitioner a Certificate of Appealability on
November 27, 2018.
The United States Court of Appeals for the Sixth
Circuit issued an Order denying Petitioner’s Motion for
Certificate of Appealability on March 28, 2019. The
United States Court of Appeals for the Sixth Circuit
issued a subsequent Order relative to Petitioner’s
Request for Rehearing and adhered to its original
decision on May 21, 2019. Finally, the United States
Court of Appeals for the Sixth Circuit issued an Order
denying Petitioner’s Request for an En Banc Hearing
on June 6, 2019. Copies of the United States District
Court’s Decision and the Decisions of the United States
Court of Appeals for the Sixth Circuit are attached
hereto.

2
JURISDICTION
The Sixth Circuit Court of Appeals entered an
Order denying Petitioner’s Motion for Certificate of
Appealability on March 28, 2019. The Sixth Circuit
issued an Order as to Petitioner’s Request for
Rehearing and adhered to its original decision on
May 21, 2019. The Sixth Circuit entered an Order
denying Petitioner’s Request for an En Banc Hearing
on June 6, 2019. Jurisdiction of this Honorable Court
is invoked inter alia., under the provisions of 28 U.S.C.
§ 1254.
RELEVANT CONSTITUTIONAL PROVISIONS
Involved herein are the Fifth and Sixth
Amendments to the United States Constitution:
Amendment V
“No person shall . . . be deprived of life, liberty,
or property, without due process of law . . .”
Amendment VI
“In all criminal prosecutions, the accused shall
enjoy the right . . . to have the assistance of
counsel for his defence.”
INTRODUCTION
This case presents important questions about a
criminal defendant’s rights to due process and the
effective assistance of counsel under the Fifth and
Sixth Amendments. Petitioner contends that he was
denied due process and effective assistance of counsel
because the District Court and his own defense counsel

3
failed in their respective roles as “gatekeeper” and
“advocates” when they allowed the Government to lead
a procession of eight physician witnesses before the
jury (only two of which had been identified before trial
as “experts” as required under Fed. Crim. R. 16). Each
of these witnesses was permitted to give “expert
testimony” absent any objection, challenge, or proper
qualification under Daubert and the Federal Rules of
Evidence.1 In denying Petitioner’s Motion to Vacate,
the District Court stated that all such witnesses would
have been allowed to testify based upon their
“qualifications” and that objecting to such witnesses’
testimony would have been a waste of time and
resources. Petitioner submits that the application of
Daubert and the Rules of Evidence in each and every
criminal case is never a waste of time and the mere fact
that a witness has professional credentials does not
render his or her testimony admissible or proper.
Almost as if the District Court and defense counsel
were star-struck, afraid, or too polite to question the
credentials of the Government’s physician witnesses,
all such witnesses gave expert testimony criticizing

1

Recognizing that Petitioner has maintained distinct challenges,
to wit: 1) the Government’s “experts” were not properly “qualified”
as “experts”, and, 2) the Government’s lay witnesses were either
permitted to give “expert testimony” and/or were allowed to give
improper “lay opinion” testimony, Petitioner will address these
over-lapping grievances together referencing such improper
testimony as “expert testimony”, since the cumulative effect was
that untested, and improper “expert testimony” was admitted at
trial without challenge or objection, in violation of Daubert,
Evidence Rules 701, 702, 703, and 704, and the Fifth and Sixth
Amendments to the United States Constitution.

4
Petitioner, his medical practices, his subjective
judgments, and even his motivations. These witnesses
were blindly accepted as “qualified” simply because
they were educated, medical doctors. In failing to
object or conduct a voir dire, defense counsel and the
District Court helped the Government’s bombard the
jury with “expert testimony” condemning Petitioner.
The Government’s unfettered and unvetted use of
“expert” testimony resulted in a constitutionally
unsound/void verdict. Defense counsel did nothing to
stop, or even slow, the blitz of complicated expert and
improper opinion testimony and were thus
constitutionally deficient.
More than one third (37%) of the Government’s case
consisted of improper “expert testimony” testimony
from witnesses who were not vetted under Evidence
Rule 702, and/or from “medical doctors” presented as
“lay” witnesses who then gave opinion testimony in
violation of Evidence Rule 701. Counsel’s failures
deprived Petitioner of due process and a fair trial,
causing him clear and actual prejudice. The District
Court likewise failed in its “gatekeeper” role under
Daubert and Evid.R. 702, further denying Petitioner
due process.
Petitioner’s criminal trial would surely have ended
in a different result absent a full one-third of the
Government’s case consisting of technical, specialized,
and scientific opinions from learned physician
witnesses who were permitted to testify inter alia.,
that: a) Petitioner’s methods and analysis were wrong,
b) Petitioner was not a competent cardiologist,
c) Petitioner was a liar, and, d) Petitioner committed

5
fraud. These damning opinions were presented in
violation of FRE 104, 402, 403, 701, 702, 703, Daubert,
and Criminal Rule 16. Reasonable jurists could at
least debate whether these constitutional violations
were so extraordinary as to have caused the outcome of
his trial. The jury was overwhelmed and had no choice
but to find Petitioner guilty.
A defendant’s constitutional rights have been
denied when he receives ineffective assistance of
counsel. Strickland v. Washington, 466 U.S. 668, 686
(1984). “An accused is entitled to be assisted by an
attorney, whether retained or appointed, who plays the
role necessary to ensure that the trial is fair.” Id. at
685. To establish ineffective assistance of counsel
under the Strickland standard, a defendant must make
two showings. First, “the defendant must show that
counsel’s representation fell below an objective
standard of reasonableness.” Id. at 688. Second, “[t]he
defendant must show that there is a reasonable
probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different.
A reasonable probability is a probability sufficient to
undermine confidence in the outcome,” Id. at 694.
At Petitioner’s trial, there was insurmountable
prejudice due to the scientific complexity of the charges
against Petitioner in relation to the alleged falsity of
his subjective medical interpretations, analysis, and
judgments. The Government presented its case and its
alleged “proof” of Petitioner’s “false statements”
through its multiple “expert” and “lay” physician
witnesses.
In failing to object and challenge the
admissibility of such witnesses’ testimony under FRE

6
701, FRE 702, defense counsel did nothing to ensure
that the trial was fair. Defense counsel’s representation
of Petitioner was therefore objectively, and
constitutionally, unreasonable. There can be no
confidence in the outcome of Petitioner’s trial.
STATEMENT OF THE CASE
The criminal case against Petitioner Harold
Persaud was based on claims that he performed
unnecessary medical tests and procedures; falsified
medical records; performed certain medical tests
improperly; utilized inappropriate cardiac testing;
falsified certain test results; and up-coded the services
he provided patients, for monetary gain.
The
Government’s criminal claims followed a negative peer
review and civil investigation opened by the hospitals
at which Petitioner had enjoyed privileges.2
Notwithstanding the overall subjectivity of the
practice of medicine, and the need for an individual’s
treating physician to use his or her skill and experience
in making necessary judgments regarding that
individual’s treatment, the Government decided that
Petitioner should be criminally prosecuted based upon
the subjective interpretations, analysis, and judgments
he made within the course of his private medical
practice.
The Government claimed Petitioner’s
interpretations and alleged misreading of the levels of
stenosis (arterial blockage) found in his patients
constituted materially false statements. Despite the
2

It is noted that physicians involved in the negative peer review
and civil investigation of Petitioner testified as Government
witnesses at trial.

7
irregularity and ever-changing standards of medical
analysis the Government considered Petitioner’s
subjective medical statements and opinions as
criminally false, rather than possible proof of mistakes,
negligence, or malpractice.
Imposing criminality upon a physician’s subjective
judgments and stretching to somehow quantify what is
an “acceptable” level of “inter-observer variability”
confounds the Government’s burden to prove the
elements of the crimes charged in violation of due
process.
The case against Petitioner included
scientifically-sophisticated testimony concerning
complicated medical concepts and modalities from
many physician witnesses, who testified about cardiac
care, medical testing standards, and “medically
necessary” versus “non-medically necessary”
procedures absent any adherence to the Federal Rules
of Evidence. Each of the Government’s physician
witnesses was permitted to give expert testimony
against Petitioner absent any objection by defense
counsel and/or voir dire and analysis of their testimony
by the District Court.
Petitioner was likely not the most popular
cardiologist practicing at St. John’s Westshore
Hospital, Southwest General Hospital, or Fairview
Hospital. He could fairly be described as “all-business”.
He was proactive and aggressive in the treatment of
his cardiac patients and was known to be purposeful
during his patients’ testing and examinations.
Petitioner cared deeply about his patients and did not
hold back letting them know when he thought their
eating habits or life-style choices were the cause of

8
their health problems. Petitioner could be critical and
was often blunt in communicating with his patients,
staff, and other doctors. He prided himself on
efficiency and did not approve of chit-chat, wasting
time, or taking short-cuts. Petitioner was self-assured
about his own skills, training, and experience.
Petitioner may have abided by more traditional cardiac
treatment methods than some of his more junior
colleagues, but that did not stop him from telling young
doctors when he thought their opinions were wrong or
when he believed his years of experience trumped their
newer, less-tested methods and procedures, which to
him, at times, seemed dictated by insurance companies.
Frankness, lack of diplomacy, and being old-fashioned,
however, are not crim es.
Petitioner’s
straightforwardness ultimately led to his downfall,
because when the wave of criticism from his peers rose
against him, other colleagues, co-workers, and former
employees (who may have been on the receiving end of
his directness) failed to speak up for him.
REASONS FOR GRANTING THE PETITION
This case presents questions of exceptional
importance regarding the ineffectiveness of Petitioner’s
trial and appellate counsel under; the abandonment of
the requirements of FRE 104, 701, 702, 703, and 704;
the elimination of the necessary process and analysis
by which proposed “expert” witness testimony is tested
under Daubert; and, the propriety of granting a
Certificate of Appealability. Petitioner submits that a
Certificate of Appealability should have issued relative
to the issues raised in his Motion to Vacate because
reasonable jurists could have resolved Petitioner’s

9
Motion differently considering the overwhelming
circumstances, the lack of adherence to the Rules of
Evidence, the lack of engagement by defense counsel
during trial through objections, and the lack of
oversight from the District Court.
In Slack v. McDaniel, 529 U.S. 473 (2000), this
Honorable Court held that § 2253 codified the standard
previously set in Barefoot v. Estelle, 463 U.S. 880
(1983). This Honorable Court reasoned that for claims
denied on the merits, a habeas petitioner “must make
a substantial showing of the denial of a constitutional
right, a demonstration that, under Barefoot, includes
showing that reasonable jurists could debate whether
(or, for that matter, agree that) the petition should
have been resolved in a different manner or that the
issues presented were “#adequate to deserve
encouragement to proceed further.”’ Id. at 483-84
(quoting Barefoot, 463 U.S. at 893, n.4).
The constitutional claims and evidentiary issues
raised in Petitioner’s Motion to Vacate could have been
resolved differently by reasonable jurists who could
debate whether he was denied due process and effective
assistance of counsel, and, whether Petitioner would
have been convicted if his defense counsel had not sat
silent while the Government presented scientific expert
testimony from a multitude of unchallenged, untested
witnesses and/or if the District Court had abided its
duties as “gatekeeper” under Daubert.
Clearly,
reasonable jurists could debate whether abrogation of
the principles set forth in Daubert and FRE 104, 701,
702, 703, and 704 during a criminal trial might be

10
considered the denial of Petitioner’s constitutional
rights.
In Daubert, this Honorable Court detailed the
district courts’ duties as “gatekeepers” in connection
with making inquiry to determine whether a particular
witness is qualified to give expert scientific testimony
under Evidence Rule 702 and Evidence Rule 104.
Specifically, this Court held that the trial court had
very specific obligations regarding the analysis of
proposed expert scientific testimony, to wit:
Faced with a proffer of expert scientific
testimony, then, the trial judge must determine
at the outset, pursuant to Rule 104(a), whether
the expert is proposing to testify to (1) scientific
knowledge that (2) will assist the trier of fact to
understand or determine a fact in issue. This
entails a preliminary assessment of whether the
reasoning or methodology underlying the
testimony is scientifically valid and of whether
that reasoning or methodology properly can be
applied to the facts in issue. We are confident
that federal judges possess the capacity to
undertake this review. Many factors will bear on
the inquiry, and we do not presume to set out a
definitive checklist or test. But some general
observations are appropriate.
Ordinarily, a key question to be answered in
determining whether a theory or technique is
scientific knowledge that will assist the trier of
fact will be whether it can be (and has been)
tested. “Scientific methodology today is based on
generating hypotheses and testing them to see if

11
they can be falsified; indeed, this methodology is
what distinguishes science from other fields of
human inquiry.” Green 645. See also C. Hempel,
Philosophy of Natural Science 49 (1966) (“[T]he
statements constituting a scientific explanation
must be capable of empirical test”); K. Popper,
Conjectures and Refutations: The Growth of
Scientific Knowledge 37 (5th ed. 1989) (“[T]he
criterion of the scientific status of a theory is its
falsifiability, or refutability, or testability”)
(emphasis deleted).
Another pertinent consideration is whether
the theory or technique has been subjected to
peer review and publication.
***
Daubert, Id. at 592-593.
At Petitioner’s trial, the Government’s physician
witnesses testified regarding the American College of
Cardiology, the American Heart Association, and
pertinent medical, billing, and professional guidelines,
and further testified relative to practical field
expectations, and acceptable medical standards for a
variety of cardiac tests and procedures.
These
physician witnesses educated the jury without any
limitations regarding the Government’s theory of the
case; the Government’s view of the medical tests and
procedures at issue; and why the Government believed
Petitioner’s subjective medical judgments were
“criminal”. These witnesses indoctrinated the jury as
to what “medical necessity” was; which medical
practices were proper; what scientific principles were

12
to be relied upon; and, what “dangers” existed when a
physician misread test results, overperformed, failed to
perform, or otherwise practiced below or contrary to
the medical standards declared “correct” by the
Government. Petitioner’s rights to due process and a
fair trial were abrogated with the admission of all of
the testimony noted above absent objection from
defense counsel or inquiry by the Court under FRE 702
and Daubert.
There was no effort during trial to determine
whether the physician witnesses and their intended
expert testimony regarding Petitioner’s subjective
medical analysis, opinions, and diagnosis, were
appropriate and admissible, and/or whether such would
assist the jury. Likewise, there was no assessment of
the reasoning or methodology undertaken by the
Government’s witnesses who gave expert testimony.
There was no inquiry or demonstration that the
witnesses’ expert testimony was based on sufficient
facts, the product of reliable principles and methods;
and/or that such witnesses reliably applied such
principles and methods to the facts of the case. Defense
Counsel failed to provide effective assistance to
Petitioner when they raised no challenge or objection to
such testimony. Similarly, the District Court failed in
its role as “gatekeeper” to ensure that proper inquiry
was made under Daubert.
Although the only information presented during
trial regarding the Government’s physician witnesses
themselves was testimony related to each witness’
background, education, licenses, experience, etc., the
District Court’s Opinion denying Petitioner’s §2255

13
Motion discloses that the Government’s “expert
witnesses” would have been allowed to testify because
the District Court fully believed such witnesses were
“qualified”. The District Court’s misapplication of the
law; over-estimation of the Government’s physician
witnesses’ abilities; failure to apply the Federal Rules
of Evidence and the law in Daubert; and, its
misunderstanding of its role as “gatekeeper” is
illustrated in the following excerpts from the
Memorandum Opinion and Order denying Petitioner’s
§ 2255 Motion:
There is no question, based on the evidence
presented at trial that the witnesses who had
been identified as experts were sufficiently
qualified to opine on the matters addressed by
each at trial.
***
At trial, the Government presented evidence of
each expert’s qualifications, and with or without
objection, the Court would have permitted the
testimony of each expert based on the
information provided. [Petitioner] has offered no
evidence or suggestion of any identifiable
deficiency that would have prevented any of
these experts from being qualified to offer
testimony in this case.
Further, the qualifications of the expert
witnesses were known to the defense prior to
trial, so defense counsel was likely aware that
any challenge to the admissibility of the expert’s
testimony would have been fruitless.

14
***
(Memorandum Opinion and Order, ECF #228, Page ID
#6992)
The Sixth Circuit’s Order denying Petitioner’s
Certificate of Appealability also assumes that a
witnesses’ professional qualifications alone will satisfy
the requirements of the Federal Rules of Evidence
relative to determining whether particular expert
testimony will be admissible. Considering only a
witness’ qualifications, but failing to analyze the
nature, basis, reliability, and probative value of such
witness’ testimony and/or failing to determine whether
such testimony will assist the trier of fact, are patent
violations of the Federal Rules of Evidence and the law
as defined in Daubert.
Notably, in Petitioner’s direct appeal, a panel of the
Sixth Circuit observed Petitioner’s counsel’s wholesale
failure to challenge the Government’s “experts” under
Daubert noting that Petitioner (who had raised only
sufficiency of evidence grounds on appeal) was “…not
arguing that the admission of the testimony of the
government’s expert witnesses violated Daubert v.
Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579, 113
S. Ct. 2786 (1993), 125 L. Ed. 2d 469 (1993), which
establishes standards for the admissibility of expertwitness testimony in federal court.” United States v.
Persaud, 886 F.3d 371 (2017), FN 11.
In reviewing Petitioner’s application for a
Certificate of Appealability, however, the Sixth Circuit
now seems to ignore the admission at trial of the very
same avalanche of unvetted, untested, expert

15
testimony (as the result of defense counsel’s and the
District Court’s failures) which resulted in an obviously
prejudicial outcome to Petitioner. Clearly, a Certificate
of Appealability is warranted in the instant case.
Indeed, Petitioner prays that a substantive review of
his Motion to Vacate and the constitutional violations
he has suffered will ultimately afford him a reversal
and a new trial.
Petitioner’s counsel were obligated to request that
appropriate inquiry and review be made pursuant to
the Federal Rules of Evidence and Daubert, before the
Governments’ witnesses could be permitted to give
expert testimony. Mere cross-examination is not a
substitute and defense counsel’s complete failure to
challenge the Government’s submission of untested
expert testimony regarding complex, scientific matters
related to the alleged “falsity” of Petitioner’s subjective
medical decisions was constitutionally deficient. Since
there were no objections, no voir dire, and no other
inquiry into the reasoning and methodology underlying
the expert testimony of the Government’s witnesses,
there is no way to now determine whether any such
reasoning and methodology (if it existed) was
appropriate and whether the expert testimony was
competent and/or admissible. Denying a Certificate of
Appealability slams the door on Petitioner’s right to
challenge the admissibility of the Government’s
purported expert evidence.
The District Court’s Memorandum Opinion denying
Petitioner’s Motion to Vacate sidesteps Strickland
completely. Without addressing defense counsel’s
failure to challenge a single witness’ capacity to give

16
relevant, admissible, expert opinion testimony. in
accord with Evid. R. 701, 702, or 703, the District
Court’s Opinion gave only cursory consideration to the
issues raised by Petitioner and concluded, without
providing any legal analysis, that all the physician
witnesses, “…were clearly qualified to be experts based
on their education and experience.” (ECF #228, Page
ID #6994).3
Further, in disregarding Daubert and the process by
which a trial court, as gatekeeper, conducts voir dire of
a potential witness, the District Court noted, “[t]here
was no need for [Petitioner’s] counsel to waste
resources and time, and risk being seen as unduly
argumentative or incompetent by the jury, by objecting
to the admission of clearly admissible testimony.” (ECF
#228, Page ID #6993). Instead of examining the
“relevance”, “admissibility”, and “fit” of these witnesses’
testimony relative to the charges against Petitioner,
and absent objection from the defense, the District
Court permitted each physician witness to give expert
testimony during trial regarding Petitioner’s actions,
medical decisions, and motives, regardless of whether
they practiced in the field of cardiology. The resulting
prejudice to Petitioner was overwhelming and the jury
had no option but to adopt the testimony and
3

Petitioner’s Motion to Vacate and Set Aside Judgment of
Conviction and Sentence Pursuant to 28 United States Code
Section 2255 includes a detailed recitation of the actual improper
expert opinion testimony given by each of the Government’s
physician witnesses, as well as it’s “medical coding expert” and
also provides further analysis relative to the alternative
presentation of improper “lay” opinion testimony absent challenge
or objection by defense counsel.

17
conclusions of such witnesses and convict him! The
District Court’s Opinion unreasonably added to
Petitioner’s injuries when it determined he was not
entitled to a COA. The Sixth Circuit erroneously
agreed.
Counsel are aware that courts are forced to contend
with a tremendous volume of cases and timeconstraints, and respectfully submit that the District
Court below was unable to give the issues raised in
Petitioner’s § 2255 Motion the in-depth analysis
required.
The District Court’s Opinion denying
Petitioner’s Motion and denying the COA, references a
different § 2255 Petitioner and mistakenly states,
“[t]his Court . . . having thoroughly reviewed the
arguments, both procedural and factual in support of
Mr. Viola’s motion to vacate, determines that there is
no substantial showing of the denial of a constitutional
right, and there is no reasonable basis upon which to
debate the Court’s procedural rulings.”
(See,
Memorandum Opinion and Order, ECF # 228, Page ID
#6997 (emphasis added). Clearly, the District Court
failed to adequately review and consider the
constitutional deficiencies of Petitioner’s counsel and
abridged its review and analysis of Petitioner’s Motion
to Vacate’s merit-based issues.
The Government’s presentation of expert testimony
from a parade of physician witnesses4 was an unfair,
4

The Government purposely elicited technical, scientific “opinion”
testimony from each of its physician witnesses regarding the
alleged “falsity” of Petitioner’s medical practices, without
complying with Criminal Rule 16 and without substantiating that
such witnesses were qualified and/or that their methodology and

18
inappropriate effort to infer the alleged falsity of
Petitioner’s subjective medical interpretations without
actual, reliable, scientific proof. In so doing, the
Government violated Crim. R. 16 and failed to meet its
burden to prove the elements of the crimes charged in
violation of due process. The District Court and
defense counsel permitted the Government to inundate
the jury with untested “expert testimony” attacking
Petitioner’s medical practices and judgments, in
violation of the rules regarding relevancy, probative
value, prejudice, and “fit”. The jury had no choice but
to find him guilty.
Criminalizing doctors’ subjective practices and
instituting prosecutions based upon the testimony of
“experts” whose qualifications are untested and whose
personally biased opinions are given without regard to
the Rules of Evidence and Daubert turns science upside
down and puts the trier of fact in an impossible
position. See, “A Second Opinion Becomes a Guilty
Verdict”, Clark and George, Wall Street Journal,
December 27, 2018, which discusses in detail the recent
trend in Health Care Fraud prosecutions’
criminalization of subjective medical practices.
The Government’s physician witnesses gave
scientific testimony and “second” opinions of what they
observed in medical records, but that did not establish
that Persaud’s real-time hands-on medical judgments
proposed testimony was appropriate under FRE 702. The bulk of
the Government’s entire case was comprised of “opinion” testimony
regarding the alleged medical practice failures of Petitioner.
Indeed, if such failures existed, they should have been the subject
of civil malpractice litigation, not criminal prosecution.

19
were criminally “false statements” within the context
of the Health Care Fraud and False Statement charges.
The Government’s expert/coding/insurance “evidence”
included speculative analysis based upon: a) a nonrandom sample; b) non-verifiable computations;
c) admittedly overstated “intended loss” figures;
d) unreasonable conclusions (by a non-physician
regarding “appropriate” treatment); e) flawed
extrapolation and analysis; f) insupportable
assumptions regarding payment protocol; g) results not
based on measurable evidence subject to accepted
scientific and mathematical principles; and, h) results
which could not be replicated.
The effect of presenting cumulative “expert” and/or
“lay opinion” testimony from so many “experts” literally
forced the jury to conclude that, if so many educated,
qualified, scientific professionals say Petitioner’s
interpretations and billing practices were wrong, they
had to be “false” as the Government claimed.
The Federal Rules of Evidence and the law under
Daubert were violated in the instant case. Reasonable
jurists could debate whether Petitioner’s counsel were
constitutionally defective. Reasonable jurists could
also debate whether the District Court failed in its
“gatekeeper” role.
CONCLUSION
For the foregoing reasons, the Court should grant
the petition for a writ of certiorari.

20
Respectfully submitted,
RICHARD G. LILLIE
Counsel of Record
GRETCHEN A. HOLDERMAN
Lillie & Holderman
2003 St. Clair Avenue
Cleveland, Ohio 44114
(216) 781-0734
rlillie@lillieholderman.com
gholderman@lillieholderman.com
Attorneys for Petitioner

